Office of Inspector General

         SEMIANNUAL
          REPORT TO
          CONGRESS
For the Period October 1, 2005 through March 31, 2006

                        Report No. 34




   “Democracy demands wisdom and vision in its citizens”
 National Foundation on the Arts and Humanities Act of 1965
                    THE OFFICE OF INSPECTOR GENERAL

                                 serves American taxpayers
                           by investigating reports of waste, fraud,
                        mismanagement, abuse, integrity violations or
                         unethical conduct involving Federal funds.



                               To report any suspected activity
                     involving NEH programs, operations, or employees

                                      Call the OIG Hotline

                                        (202) 606-8423



                                        Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                     Fax:   (202) 606-8329


                              Electronic Mail Hotline: oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential



This report is also available on the NEH/OIG Website at http://www.neh.gov/whoweare/
oig.html
     NATIONAL                                                               OFFICE OF INSPECTOR GENERAL
     ENDOWMENT                                                              1100 PENNSYLVANIA AVE., NW
     FOR THE                                                                WASHINGTON, D.C. 20506
     HUMANITIES                                                             ROOM 419
                                                                            TELEPHONE(202) 606-8350
                                                                            FACSIMILE (202) 606-8329
                                                                            E-mail oig@neh.gov



                                           Apri1 27, 2006

Honorable Bruce Cole
Chairman
National Endowment for the Humanities
Washington, DC 20506

Dear Chairman Cole:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Con-
gress for the first half of fiscal year 2006. On September 29, 1965, President Johnson signed
the National Foundation for the Arts and Humanities Act; and during the fiscal year 2006, you
are leading NEH’s 40th Anniversary celebration. The OIG staff congratulates you since, on
December 17, 2005, the Senate unanimously confirmed your nomination for a second term.

The report is submitted in accordance with the Inspector General Act of 1978, as amended.
Section 5 of the Act requires that you submit this report, with your Report of Final Action, to
the appropriate committee or subcommittee of the Congress within 30 days of its receipt. The
report provides a summary of the activities of the OIG during the six-month period ended
March 31, 2006.

During the current period, we completed and issued final reports concerning two internal re-
views and one internal audit. We issued one draft internal audit report. In addition, we com-
pleted and issued one pre-award accounting system telephone survey, 60 OMB Circular A-133
reports were reviewed, and thirteen overhead desk reviews were completed. In our investiga-
tions program, we received ten “Hotline” contacts. Four matters remain open at the end of this
period. We also monitored, reviewed and released the first annual audited financial state-
ments. Although NEH received a clean opinion, NEH staff and contractors had to work dili-
gently to implement the new accounting system with problems continuing. With new leader-
ship in the Accounting Office, it appears the fiscal year 2006 effort will be more effective and
certainly less costly.

I appreciate your support and look forward to working with you and all agency staff to further
our common purpose of assuring the effectiveness, efficiency and integrity of NEH’s contribu-
tions to the humanities.

                                             Sincerely,



                                             Sheldon L. Bernstein
                                             Inspector General
                                           TABLE OF CONTENTS



LETTER TO THE CHAIRMAN

THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ............................................                                          1

THE OFFICE OF INSPECTOR GENERAL ...........................................................................                       1

AUDIT AND REVIEW ACTIVITIES .......................................................................................               2

INVESTIGATIVE ACTIVITIES ……………………………………………………………………                                                                              7

OTHER ACTIVITIES..............................................................................................................   9

TOP MANAGEMENT CHALLENGES ...................................................................................                    10

TABLE I - REPORTING REQUIREMENTS…………………………………………………......                                                                        12

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS.....................................................                                 13
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH .........................................                                      13
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY .............................................................................                      14
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
       In order to promote progress and scholarship in the humanities and the arts in the United States,
       Congress enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act
       established the National Endowment for the Humanities as an independent grant-making agency of
       the Federal government to support research, education, and public programs in the humanities.
       Grants are made through four divisions - Research Programs, Education Programs, Preservation and
       Access, and Public Programs -- and two offices -- Challenge Grants and Federal-State Partnership.
       The divisions and offices also administer the We the People: NEH’s American History initiative.

       The Act that established the National Endowment for the Humanities says "The term 'humanities'
       includes, but is not limited to, the study of the following: language, both modern and classical;
       linguistics; literature; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the
       history, criticism, and theory of the arts; those aspects of social sciences which have humanistic
       content and employ humanistic methods; and the study and application of the humanities to the
       human environment with particular attention to reflecting our diverse heritage, traditions, and history
       and to the relevance of the humanities to the current conditions of national life."



                            THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established
       Offices of Inspector General in several departments and in thirty-three agencies, including the NEH.
       The NEH Inspector General (IG) is appointed by the Chairman. The independence of the IG is an
       important aspect of the Act. For example, the IG:

       •    cannot be prevented from initiating, carrying out, or completing an audit or investigation, or from
            issuing any subpoena;

       •    has access to all records of the agency;

       •    reports directly to the Chairman, and can only be removed by the Chairman, who must promptly
            advise Congress of the reasons for the removal; and

       •    reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investi-
       gations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
       and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The
       Inspector General is also responsible for keeping the Chairman and Congress fully and currently
       informed of problems and deficiencies in the programs and operations.

       The OIG staff consists of the Inspector General, Deputy Inspector General, two auditors, and a
       secretary. The OIG and the Office of the General Counsel (OGC) have a Memorandum of
       Understanding detailing the procedures for the OIG to be provided with OGC legal services.
       Investigations are handled by the Inspector General, an auditor and as required by the agency’s
       Assistant General Counsel.




NEH OIG Semiannual Report                                      1                                                     September 2005
                               AUDIT AND REVIEW ACTIVITIES

                                         LIST OF REPORTS ISSUED
  This office is responsible for external and internal audits. External auditing includes grants, pre-
  award accounting system surveys, review of OMB Circular A-133 audit reports, overhead desk re-
  views, and on-site quality control reviews of CPA workpapers. Internal efforts consist of audits,
  inspections, and reviews/evaluations of NEH administrative, programmatic, and financial operations.

  Following is a list of reports issued by the OIG during this reporting period. The Inspector General
  Act of 1978, as amended, requires us to report on the "Dollar Value of Recommendations that Funds
  Be Put to Better Use" and the "Total Dollar Value of Questioned Costs" (including a separate cate-
  gory for the “Dollar Value of Unsupported Costs”), (see Table II).

                                                                   Report Number             Date Issued
 INTERNAL AUDITS/REVIEWS

          Fiscal Year Ended September 30, 2005                     OIG-06-01 (IR)            10/12/05
          Consolidated Review of the Federal Managers’
          Financial Integrity Act (FMFIA)

          Federal Information Security Management                  OIG-06-02 (IR)            10/20/05
          Act (FISMA) Review

          Audit of National Endowment for the                      OIG-06-01 (IA)            02/03/06
          Humanities Use of Donated Funds

          Audit of the NEH Selection, Purchase and                 OIG-06-02 (IA)            03/30/06
          Implementation of the Oracle Accounting System
          (Draft Report)

          Audit of NEH’s Financial Statements for the                  ---                   11/07/05
          Fiscal Year Ended September 30, 2005
          (Report issued by Independent Public Accountant)


 EXTERNAL AUDITS/REVIEWS

          American Jewish Historical Society                       OIG-06-01 (TS)            03/17/06
          Telephone Survey Memorandum Report

          OVERHEAD DESK REVIEWS

          Canal Corridor Association                               NEH-06-01 (ODR)           11/23/05
          Oxford University Press                                  NEH-06-02 (ODR)           12/09/05
          Massachusetts College of Art                             NEH-06-03 (ODR)           12/12/05
          Conservation Center for Art and Historic Artifacts       NEH-06-04 (ODR)           12/12/05
          Western Reserve Historical Society                       NEH-06-05 (ODR)           12/12/05
          Film Odyssey, Inc.                                       NEH-06-06 (ODR)           01/06/06
          The Huntington Library                                   NEH-06-07 (ODR)           01/06/06
          American Antiquarian Society                             NEH-06-08 (ODR)           01/23/06
          American Historical Association                          NEH-06-09 (ODR)           02/13/06
          American Library Association                             NEH-06-10 (ODR)           02/09/06
          Jewish Theological Seminary                              NEH-06-11 (ODR)           03/03/06
          Shelburne Museum                                         NEH-06-12 (ODR)           03/17/06
          George Marshall Research Foundation                      NEH-06-13 (ODR)           03/16/06

          SINGLE AUDIT ACT REVIEWS                                 60 Reviews                See Page 6

NEH OIG Semiannual Report                                      2                                           March 2006
                                 AUDIT AND REVIEW ACTIVITIES

                                         SUMMARY OF REPORTS ISSUED

                                               INTERNAL AUDITS/REVIEWS

                            Fiscal Year Ended September 30, 2005 Consolidated Review of the
                                    Federal Managers’ Financial Integrity Act (FMFIA),
                                             October 12, 2005, OIG-06-01 (IR)

     We performed a limited review of the information submitted by each office head/division director. Our review cov-
     ered fiscal year ended September 30, 2005. We found that the agency’s reviews were carried out in a reasonable
     and prudent manner according to guidelines issued by the Office of Management and Budget.

     The OIG found that the new accounting system did not produce: (1) a reliable trial balance, (2) reports to U.S.
     Treasury, (3) reports to OMB, and (4) reports to division and office heads, (which we find to be a material weak-
     ness). The cause of the problems with the Oracle accounting system was that a person having no accounting
     knowledge and experience led the implementation. It appears that errors made in the first several months after the
     implementation date of October 1, 2003, caused most problems. As of September 30, 2005, NEH staff made sig-
     nificant progress; however, the NEH was not ready for the IPAs to complete the financial statement audit.

                             Federal Information Security Management Act (FISMA) Review,
                                            October 20, 2005, OIG-06-02 (IR)

     The objectives of this review were to determine NEH’s compliance with FISMA, OMB guidance on FISMA, and NIST
     guidance on information security. Our scope was limited to NEH IT security policies that were in effect for fiscal
     year 2005. NEH has three mission critical IT systems as identified in the Office of Information Resources Manage-
     ment (OIRM) Security Operations and Architecture dated August 29, 2005 - the NEH General Support System/
     Network, the Oracle Accounting System, and the Grants Management System. Our review concentrated on NEH’s
     Plan of Action and Milestones, certain general controls/areas, and mission critical systems and/or subsystems of a
     mission critical system.

     The OIG reported the following deficiencies in several mission critical systems or subsystems:

     •   OIRM lacked documentation supporting the risk assessment process and the certification and accreditation
         process;

     •   OIRM is not in compliance with the policies on Network Testing and Passwords;

     •   OIRM does not have distinct policies for Security Configuration and Change Control for the Grants Management
         System and the Patch Management policy does not allow for the collection of supporting evidence;

     •   OIRM does not frequently review the logs for the General Support System/Network and was unaware if the sys-
         tem administrator’s activities for the Oracle accounting system were being logged and reviewed; and

     •   OIRM does not test for wireless networks at NEH, however the OIG’s limited testing found wireless networks in
         the building.

     The NEH OIRM developed a plan to correct the findings.




NEH OIG Semiannual Report                                   3                                                March 2006
                                    AUDIT AND REVIEW ACTIVITIES

                            Audit of National Endowment for the Humanities Use of Donated Funds
                                                February 3, 2006, OIG-06-01 (IA)

   The objectives of the audit were to:

   1. Assess the adequacy of internal management controls as they pertain to the administration of donated funds;
      and,

   2. Determine if disbursements of donated funds were made in accordance with applicable laws, regulations, and
      internal NEH policies. The audit period was October 1, 2003 through October 26, 2004.

   We found that internal management controls pertaining to the administration of donated funds are adequate as de-
   signed. However, our audit revealed several instances of noncompliance with documented policy and procedures.

            •    Disbursements of donated funds which were not approved by the Accounting Officer as required by NEH
                 Administrative Directive M-104, Acquisition Policy and Procedures.

            •    Disbursements of donated funds which were not approved by the Accounting Officer, the General Coun-
                 sel, and the Deputy Chairman as required by NEH Administrative Directive M-104, Acquisition Policy and
                 Procedures.

            •    Disbursements of donated funds that included sales tax. This represents a noncompliance with NEH Ad-
                 ministrative Directive M-108, U.S. Government Credit Card Program and the terms and conditions of the
                 GSA Smart Pay® Master Contract.

   We also noted that there were insufficient gift funds restricted and coded in the accounting system to specifically
   cover expenses associated with the National Humanities Medalists events. Expenditures exceeded funds restricted
   and coded in the accounting system for the project by approximately $36,355.

   A decision has been made by senior management to give the new Accounting Officer, who was hired in March 2006,
   the opportunity to develop a response. We concur with this decision.


                                  Audit of the NEH Selection, Purchase and Implementation
                                       of the Oracle Accounting System (Draft Report)
                                                March 30, 2006, OIG-06-02 (IA)

   The objectives of the audit were to determine 1) whether the selection methodology and supporting documentation
   indicates that the system selected would deliver the most functionality (reports generated directly from the system,
   user friendly, the best system for NEH) and would provide the information needed to adequately manage NEH’s fund-
   ing for programs and operations; 2) if the system complied with Federal financial management system requirements,
   generally accepted accounting principles, the U.S. Standard General Ledger at the transaction level, and met all of
   the former Joint Financial Management Improvement Program’s (JFMIP) mandatory requirements at the time that
   NEH contracted for the system; 3) whether the pre-award and post-award contracts were managed adequately; and
   4) total costs, including contract/agreements with Oracle Corporation, Department of Interior’s National Business
   Center, and various contractors hired to implement and integrate existing subsystems [Grants Management for NEH
   and Institute for Museum and Library Services (IMLS) and the payroll information received from the National Finance
   Center for both agencies], as well as contractors hired after the system was implemented to resolve system prob-
   lems. We were also interested in determining the costs for NEH and IMLS staff associated with the implementation
   and testing of the system.




                                                                                                                          .


NEH OIG Semiannual Report                                    4                                              March 2006
                                  AUDIT AND REVIEW ACTIVITIES

   We found that: 1) the Oracle system was not providing management, the divisions and offices, with monthly reports;
    2) there was an internal control weakness during the implementation process due to one person having too much
   control over the monitoring of the contracts and the person lacked accounting system expertise; 3) the implementa-
   tion process took substantially longer than anticipated with significant cost-overruns; and 4) the purchase may have
   violated the “Augmentation Rule” of the Principles of Federal Appropriations Law in fiscal year 2002.

   We gave the NEH sixty days from issuance of the report to provide a response.


                        Audit of NEH’s Financial Statements for the Fiscal Year Ended September 30, 2005
                             (Report issued by Independent Public Accountant on November 7, 2005)

   The Accountability of Tax Dollars Act of 2002 requires NEH, as well as several other small agencies and commis-
   sions, to prepare and submit to the Congress and the Director of the U.S. Office of Management and Budget annual
   audited financial statements. NEH received a written waiver from OMB for fiscal year 2003 and a verbal waiver for
   fiscal year 2004.

   For the fiscal year ended September 30, 2005, independent public accountants performed the first annual audit of
   NEH’s financial statements. The objectives of the audit were to ensure that the NEH was meeting its responsibilities
   for (1) preparing the financial statements in conformity with generally accepted accounting principles; (2) establishing,
   maintaining, and assessing internal control to provide reasonable assurance that the broad control objective of the
   Federal Managers’ Financial Integrity Act are met; (3) ensuring that the NEH’s financial management systems sub-
   stantially comply with statutory requirements; and (4) complying with other generally applicable laws and regulations.

   The independent public accountants (IPA) reported that in their opinion, the financial statements present fairly, in all
   material respects, the financial position, net cost, changes in net position, budgetary resources, and financing of the
   NEH, as of and for the year ended September 30, 2005, in conformity with accounting principles generally accepted
   in the United States of America.

   The IPA’s opinion is known as an unqualified opinion, which is exemplary for a first-ever audit of an entity’s financial
   statements. In addition, this was the first audit with the new Oracle accounting system. However, the IPAs noted
   reportable conditions involving internal control and its operations. The IPAs also considered “… matters concerning
   financial policies, procedures, and processes; funds control; and separation of incompatible duties to be material
   weaknesses.”

   In addition, the IPAs reported an instance of noncompliance with laws and regulations. They discovered a violation of
   the Anti-deficiency Act which occurred as a result of year-end accruals for fiscal year 2004. Reports of the violation
   were not sent to the President, Congress and the General Accountability Office as required. The Assistant Chairman
   for Operations and Planning sent a draft of the required letter to the Office of Management and Budget for approval
   and clearance. As of March 31, 2006, OMB has not responded.

   The NEH management concurred with the facts and conclusions in the IPA’s report. NEH is currently taking action to
   remedy the areas reported on by the IPAs. The most significant action was the hiring of a new accounting officer who
   along with the systems accountant, should be able to operate the new system efficiently and effectively.




                                                                                                                              .


NEH OIG Semiannual Report                                    5                                                      March 2006
                                      AUDIT AND REVIEW ACTIVITIES

                                                          EXTERNAL AUDITS/REVIEWS

                       American Jewish Historical Society Telephone Survey Memorandum Report
                                            March 17, 2006, OIG-06-01(TS)

     The purpose of the telephone survey was to obtain information to determine the adequacy of the organiza-
     tion’s accounting system, management controls, and policies and procedures designed to administer NEH
     grant funds.

     Based on the telephone survey and written assurance from officials of the organization, we determined that
     the organization would be capable of accounting and managing NEH grant funds.

                                                               Overhead Desk Reviews

     The OIG performs overhead desk reviews (ODRs) for grantees requiring indirect cost rates. The reviews
     are done in accordance with the President’s Council on Integrity and Efficiency, Quality Standards for In-
     spections. The OIG sends the results of the ODRs to the Assistant Chairman for Planning and Operations,
     who negotiates the indirect cost rates with the grantees. We completed thirteen reviews during this period,
     (see page 2).
                                              Single Audit Act Reviews

     In fiscal year 2005, the NEH spent approximately 85 percent of its annual expenditures on grantees. Many
     of the NEH grantees are covered by the Single Audit Act Amendment of 1996. Grantees expending
     $500,000 or more in Federal dollars per annum are required to obtain an OMB Circular A-133 audit.1 The
     OIG receives OMB Circular A-133 reports from other Federal agencies (mainly the Department of Health
     and Human Services), state and local government auditors, and independent public accountants. The ob-
     jective of the audit is to determine whether Federal funds are expended in accordance with applicable laws
     and regulations.

     During the six-month period ended March 31, 2006, we reviewed sixty OMB Circular A-133 audit reports.
     None of the reports contained findings that needed to be reported to NEH management.

                                                                  WORK IN PROGRESS

     Desk Reviews of Documentation Related To Salaries and Wages Charged to NEH Grants

              •    Educational Broadcasting Corporation
              •    WGBH Educational Foundation
              •    The Bill of Rights Institute
              •    Fine Arts Museum of San Francisco
              •    Connecticut Historical Society
              •    Mid-America Arts Alliance

     Overhead Desk Reviews

              •    Washington Educational Television Association




                   1
                    Effective for years ending after December 31, 2003, the threshold was increased from $300,000 to $500,000. An audit is
                   mandatory when a grantee expends $500,000 of Federal funds, cumulative from all Federal sources, in its fiscal year.




NEH OIG Semiannual Report                                                          6                                                         March 2006
                                     INVESTIGATIVE ACTIVITIES

                                                      BACKGROUND

       The Inspector General Act provides the authority for the Office of Inspector General to investigate
       possible violations of criminal or civil laws, administrative regulations, and agency policies, which relate
       to the programs and operations of the NEH. The OIG Hotline, e-mail address, and regular mail are
       efficient and effective means of receiving allegations or complaints from employees, grantees,
       contractors, and the general public. The OIG has obtained assistance from other OIGs, the Federal
       Bureau of Investigation, the Postal Inspection Service, and other investigative entities as necessary.

       When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a
       determination of the appropriate action to take. This can be an audit, an investigation, a referral to
       another NEH office or division, a referral to another Federal agency, or no action is needed.

       As of October 1, 2005, two files were open. During the six months ended March 31, 2006, we received
       ten “Hotline" contacts. We are holding four matters open as of March 31, 2006.

                                             OPEN AT OCTOBER 1, 2005

       Two matters were open at October 1, 2005, one of which remains open at March 31, 2006. The open
       matter involves an allegation that the agency used appropriated funds in anticipation of receiving do-
       nated/gift funds at a later date. The NEH General Counsel has informed us that documentation would
       be provided to the OIG showing that the allegation is incorrect. We had not received the documentation
       as of March 31, 2006.

                                          CONTACTS DURING THE PERIOD

       We received ten “Hotline” contacts during this reporting period. Six concerned internal matters and four
       concerned external matters. Three concerns were referred to other offices and/or divisions within the
       NEH. Three internal matters and one external matter were closed after preliminary questions were
       raised. The three open matters concern internal issues.

                              MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

       None during this period.

                                       HOTLINE AND PREVENTION ACTIVITIES

       We maintain a local Hotline phone number, agency e-mail address, and an internet address to provide
       additional confidentiality for those persons bringing matters to the attention of the OIG. We continue to
       issue agency-wide e-mail messages informing NEH staff of violations that should be reported to the OIG.
       We also send e-mail messages several times during the year to inform NEH staff about the OIG
       operations. Posters advising staff to contact the OIG are displayed throughout the agency’s facilities.

                                                 ANONYMOUS E-MAIL

       We have on the NEH intranet and the internet a system for staff, grantees, contractors, etc. to report
       waste, fraud, abuse, and mismanagement in an anonymous manner.




NEH OIG Semiannual Report                                     7                                                       March 2006
                            INVESTIGATIVE ACTIVITIES


                              SUMMARY OF INVESTIGATION ACTIVITY



                                Open at beginning of period         2


                             Matters brought to the OIG during
                                    the reporting period            10


                                 Total investigative contacts       12

                            Closed, referred, or no action needed
                                 during the reporting period        8


                                   Open at end of period            4




NEH OIG Semiannual Report                          8                     March 2006
                                               OTHER ACTIVITIES

                                     PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                              INTEGRITY AND EFFICIENCY

       The Executive Council on Integrity and Efficiency (ECIE) was established by the President in 1992 to
       coordinate and implement government-wide activities to combat fraud and waste in Federal programs
       and operations. OIG staff regularly attend ECIE meetings and provide information to the ECIE.

                                         REGULATORY AND LEGISLATIVE REVIEWS

       The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review pro-
       posed legislation and regulations. The reviews are made to assess whether the proposed legislation
       and/or regulations (1) impact on the economy and efficiency of agency programs and operations, and
       (2) contain adequate internal controls to prevent and detect fraud and abuse. During this period, no
       reviews were necessary.
                                                WORKING WITH THE AGENCY

       In this period, OIG staff attended and engaged in various NEH meetings - panel meetings (where
       grant applications are reviewed by outside consultants), pre-council meetings (where program staff
       discuss panel review results with the Chairman and his immediate staff), and the National Council
       meeting. In addition, the IG and Deputy IG attended the Chairman's monthly policy group meetings.
       An OIG staff person attended monthly NEH Employee Association meetings. OIG staff was also in-
       volved in the review of NEH administrative directives.

       The Office of Inspector General contributes to the discussions; however, the office does not partici-
       pate in policy making.
                                              OIG INTERNET AND INTRANET

       The OIG has listed several semiannual reports on the internet. The reports are accessible through the
       NEH homepage and the OIG homepage (http://www.neh.gov/whoweare/OIG.html).

       To enhance the NEH staff's recognition of the OIG mission and responsibilities, we provide links to
       several other Federal agencies such as the Office of Management and Budget, the General
       Accountability Office, the Office of Government Ethics, and the IGNET.

                                                  TECHNICAL ASSISTANCE

      Throughout the reporting period, OIG staff provided telephone technical assistance to NEH grantees
      and independent public accountants concerning various matters including the preparation of indirect
      cost proposals and the implementation of Federal audit requirements.




NEH OIG Semiannual Report                                   9                                                  March 2006
                               TOP MANAGEMENT CHALLENGES

                                      As of Fiscal Year Ended September 30, 2005

     Successfully Implement an Agency Financial Management System

     On October 1, 2003, NEH began using a web-based accounting system developed by the Oracle Corpora-
     tion. Oracle was one of several companies that had been approved by the Joint Financial Management Im-
     provement Program (JFMIP) at the time NEH purchased the system. NEH encountered many problems im-
     plementing the new system and, to date, is not operating the state-of-the-art system that was purchased in an
     efficient manner. The main problem was that NEH began implementation of the system without any of the
     accounting staff having knowledge and experience with the U.S. Standard General Ledger. For almost
     twenty-five years, the accounting staff controlled all of NEH’s transactions through an allotment ledger. This
     ledger did not meet JFMIP requirements and preparing financial statements based on this system would have
     been very labor intensive and costly. NEH selected the Director of Administrative Services to manage the
     implementation project. Instead of hiring a systems accountant several months prior to the actual implemen-
     tation, one was not hired until the project was a few months in progress. Initially, competent accountants
     were not active in the implementation project. Consequently, NEH had to hire various contractors and ex-
     pended close to double the amount originally budgeted to complete the system implementation. During the
     approximately twenty months spent on the project, NEH staff put forth an exemplary effort to bring the system
     to a point where auditable financial statements could be produced.

     Some of the problems that will have to be addressed in fiscal year 2006 are:

              •    The financial systems are not integrated with the grants management system.

              •    The agency’s failure to adhere to Federal accounting standards.

              •    The accounting system does not fully comply with the U.S. Standard General Ledger.

              •    Failure to perform reconciliations in a timely manner.

              •    Inadequate internal controls between the procurement/contracting function and the accounting
                   office.

              •    Untimely and inaccurate recording of transactions.

     Several of these problems were addressed as the FY 2005 financial statements were being prepared and
     audited. NEH has hired an accounting officer that is knowledgeable and qualified to supervise the accounting
     staff and manage the financial operation.

     Strengthen Information Security

         •    As E-commerce increases, i.e., Grants.Gov, NEH will be more susceptible to outside and inside
              risks. In addition, telecommuting is also bringing additional security concerns. NEH’s Office of Infor-
              mation Resource Management (OIRM) must proactively monitor system intrusions to determine if
              user accounts and passwords have been compromised.




NEH OIG Semiannual Report                                      10                                               March 2006
                              TOP MANAGEMENT CHALLENGES

  Continue to Improve Planning and Performance Measurement in Accordance with the Results Act.

       •    The Endowment has made progress in the past several years. However, more needs to be accom-
            plished. The OIG recognizes that measuring the benefits of many programs is difficult. In many areas,
            NEH places more emphasis on outputs than outcomes. NEH should gradually have the divisions collect
            outcome-type data from grantees. For instance, while we learn that a high school teacher is imparting
            his/her new summer seminar knowledge to 250 students a year (guestimate), we should try to learn the
            effect on the students. Do they read more books on the topic, are they thinking about taking more
            courses on the same topic in college? What real effect does a summer seminar have on the students of
            the person attending the seminar? In addition, what does the school principal and the department chair
            see as the outcome of the teacher taking the seminar?

  Information Resource Management

       •    NEH has made and continues to make significant progress on e-gov and is moving towards the eventual
            goal of having grantees submit complete proposals, reviewing the proposals on-line, and processing
            proposals electronically. This is a long-term government project being developed by several agencies
            working together. We will be listing this as a management challenge until a significant amount of grants
            are processed completely through e-gov.

  Human Capital

       •    The Comptroller General of the United States has cited human capital as a high-risk area. Similar to
            many Federal agencies, NEH will be facing the retirement of a large amount of staff within the next
            several years. One office, the Office of Grant Management, has the possibility of having a complete
            turnover of staff within the next three to six years. NEH’s challenge is to evaluate how retirements will
            change the agency. Now would also be a good time to review workflow of all offices and divisions and
            determine if any workload and mission realignments are necessary.




NEH OIG Semiannual Report                                     11                                                March 2006
                                                                 TABLE I

                                        REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
       requirements for semiannual reports. The requirements are listed and cross-referenced to the
       applicable pages in this report.


       IG Act Reference                Reporting Requirements                                                               Page

       Section 4(a)(2)                 Regulatory and Legislative Reviews……………………………… 9

       Section 5(a)(1)                 Significant Problems, Abuses, and Deficiencies………………… *

       Section 5(a)(2)                 Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)                 Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)                 Matters Referred to Prosecutive Authorities……………………… 7

       Section 5(a)(5)                 Instances Where Information Was Refused or Not Provided…… **

       Section 5(a)(6)                 List of Reports Issued………..……………………………………… 2

       Section 5(a)(7)                 Summary of Reports Issued.………………………………………. 3-6

       Section 5(a)(8)                 Audit Reports - Questioned Costs….……………………………… 13

       Section 5(a)(9)                 Audit Report - Funds To Be Put to Better Use.…….…………….. 13

       Section 5(a)(10)                Prior Audit Reports Unresolved…………………………………..… *

       Section 5(a)(11)                Significant Revised Management Decisions………………………. *

       Section 5(a)(12)                Significant Management Decisions with which OIG Disagreed…. *



        * None this period

       ** While no information was refused or not provided, the audits of the Oracle Accounting System and Use of Donated
       Funds were seriously delayed because of the effort expended by NEH’s accounting staff to prepare for the agency’s
       financial statement audit.




NEH OIG Semiannual Report                                                   12                                                     March 2006
                                                       TABLE II
                                          INSPECTOR GENERAL-ISSUED REPORTS
                                                WITH QUESTIONED COSTS


                                                                                         Number       Questioned     Unsupported
                                                                                       Of Reports      Cost            Cost
         A. For which no management decision has been made by the                           -1-          $ -0-         $-0-        1/
            commencement of the reporting period.

         B. Which were issued during the reporting period.                                  -0-          $ -0-         $-0-

                                      Subtotals (A+B)                                       -1-          $ -0-         $-0-

         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                                   -0-          $ -0-         $ -0-

                  ii.   Dollar value of costs not disallowed (grantee                       -0-          $ -0-         $ -0-
                        subsequently supported all costs).

                  iii. Dollar value of costs not disallowed based on the                    -0-          $ -0-          $ -0-
                       “Value of Services Received.”

         D. For which no management decision has been made by the                           -1-           $ -0-        $ -0-
            end of the reporting period.

         E. Reports for which no management decision was made within                        -1-          $ -0-         $ -0-
            six months of issuance.




                                                     TABLE III
                                        INSPECTOR GENERAL-ISSUED REPORTS
                               WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                                                                   Number         Dollar
                                                                                                                   Of Reports     Value

         A. For which no management decision has been made by the commencement                                      -0-         $-0-
            of the reporting period.

         B. Which were issued during the reporting period.                                                          -0-         $-0-

         C. For which a management decision was made during the reporting period.                                    -0-        $-0-

                  i. Dollar value of recommendations that were agreed to by management.                                         $-0-

                  ii. Dollar value of recommendations that were not agreed to by                                                $-0-
                      management.

         D. For which no management decision was made by the end of the reporting period.                            -0-        $-0-


         1/ Corrections to prior semiannual: We previously reported that the period opened and closed with $92,998 of ques-
         tioned costs and $55,506 Unsupported Costs . However, a management decision was made allowing the costs based
         on the “Value of Services Received. Therefore, the ending balances were zero.
NEH OIG Semiannual Report                                            13                                                         March 2006
                            GLOSSARY OF AUDIT TERMINOLOGY

        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation;
        or because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                  14                                            March 2006
